<html>
<title> - ENHANCING PATENT DIVERSITY FOR AMERICA'S INNOVATORS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                    
         ENHANCING PATENT DIVERSITY FOR AMERICA'S INNOVATORS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              HEARING HELD
                            JANUARY 15, 2020

                               ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





            Small Business Committee Document Number 116-067
             Available via the GPO Website: www.govinfo.gov
             
             
             
             
          ENHANCING PATENT DIVERSITY FOR AMERICA'S INNOVATORS
          
          



 
          ENHANCING PATENT DIVERSITY FOR AMERICA'S INNOVATORS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            JANUARY 15, 2020

                               __________

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
                               

         Small Business Committee Document Number 116-067
        Available via the GPO Website: www.govinfo.gov
             
             
             
             
                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
38-875                   WASHINGTON : 2020 
             
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
            Justin Pelletier, Majority Deputy Staff Director
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                               WITNESSES

Ms. Andrea Ippolito, Program Director of W.E. Cornell, Cornell 
  University, Ithaca, NY.........................................     4
Dr. Rashawn Ray, David M. Rubenstein Fellow, The Brookings 
  Institution, Washington, DC....................................     6
Ms. Janeya Griffin, Managing Member and Principal Consultant, The 
  Commercializer, LLC, Lancaster, CA.............................     8
Mr. Rick C. Wade, Vice President, Strategic Alliances and 
  Outreach, U.S. Chamber of Commerce, Washington, DC.............    10

                                APPENDIX

Prepared Statements:
    Ms. Andrea Ippolito, Program Director of W.E. Cornell, 
      Cornell University, Ithaca, NY.............................    25
    Dr. Rashawn Ray, David M. Rubenstein Fellow, The Brookings 
      Institution, Washington, DC................................    35
    Ms. Janeya Griffin, Managing Member and Principal Consultant, 
      The Commercializer, LLC, Lancaster, CA.....................    42
    Mr. Rick C. Wade, Vice President, Strategic Alliances and 
      Outreach, U.S. Chamber of Commerce, Washington, DC.........    56
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Statement of Holly Fechner, Covington & Burling LLP on behalf 
      of Innovation Alliance.....................................    62
    Statement of Incubate........................................    67
    Statement of Susie M. Armstrong, Senior Vice President, 
      Engineering, QUALComm, Inc.................................    71
    Success Act combined written testimonies from 24 witnesses...    81
    Success Act transcript, Alexandria, VA.......................   212
    Success Act transcript, Detroit, MI..........................   304
    Success Act transcript, San Jose, CA.........................   490
    Success Act, Inventor letter to Hon. Velazquez...............   609


          ENHANCING PATENT DIVERSITY FOR AMERICA'S INNOVATORS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:31 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Davids, Chu, Evans, Schneider, Delgado, Houlahan, Craig, 
Chabot, Balderson, Hagedorn, Stauber, Burchett, and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The Committee will come 
to order.
    I would like to start by thanking all of our witnesses for 
coming today to participate in this important hearing.
    As the Chair of the House Small Business Committee, I see 
every day how innovation and invention drive entrepreneurship. 
An important part of how we support American inventors is 
through our patent system. Applying for and obtaining a patent 
allows small firms to gain access to capital, find licensing 
deals, and level the playing field with larger competitors--all 
of which lead to jobs and economic growth.
    However, women, minorities, and low-income individuals from 
urban and rural America are significantly underrepresented in 
the innovation ecosystem. The Institute for Women's Policy 
Research reported that in 2016, less than 20 percent of U.S. 
patents listed one or more women as inventors, and under 8 
percent listed a woman as the primary inventor. Research also 
reveals that only six patents per million were attributed to 
African American inventors. Additionally, children who are born 
to high-income families are 10 times more likely to obtain a 
patent than children from below-median income families.
    This severe underrepresentation not only hurts these 
groups, but the economy as a whole. Reports show the U.S. GDP 
would grow by 4.6 percent if more women and minority inventors 
were included in the patent system. This is particularly 
troubling for low-income communities and rural America that are 
already suffering from being on the wrong side of the digital 
divide. That is why this Committee held a staff briefing on 
rural innovation to educate Members and staff on the obstacles 
inventors and tech founders face in building innovation hubs in 
rural America.
    As the Chairwoman of this Committee, I am dedicated to 
ensuring that every corner of America has equal access to the 
patent system. Doing so is not only the right thing to do; it 
makes economic sense to harness the potential of all Americans 
to fully support innovation and competitiveness.
    During today's hearing we will hear from experts on 
barriers to entry in the patent system, how we can craft public 
policy to increase diversity, and other challenges facing women 
and minorities in STEM-heavy industries.
    One way to improve the intellectual property system is 
gathering better information on who is applying for patents. 
Thanks to the leadership of the Ranking Member, Mr. Chabot, his 
legislation, the SUCCESS Act, required the USPTO to look at the 
participation of women, minorities, and veterans in the patent 
system. That bill and its report were a great first step. 
However, a key finding was that there is a limited amount of 
publicly available data regarding the participation rates of 
women, minorities, and veterans.
    If you cannot measure it, you cannot improve it. This lack 
of research and reporting on patent applicant demographic data 
makes it difficult for policymakers to advance legislation that 
will foster inclusive innovation.
    I have mentioned many times that nearly 85 percent of SBA 
loan applicants voluntarily fill out the demographic data that 
is collected by SBA. This provides the Committee with valuable 
insight regarding the small businesses utilizing the SBA for 
access to capital.
    The IDEA Act, which I introduced earlier this Congress, 
builds on the SUCCESS Act by collecting patent applicant 
demographic data on a voluntary basis at the application stage 
and directing the USPTO to produce reports. Collecting and 
reporting this valuable information will drive better policy 
and help close the patent gap faced by women, minorities, and 
others. It will also provide insight so that we can make smart, 
targeted investments to increase the pool of inventors and 
entrepreneurs.
    At the same time, we must also address some of the barriers 
many Americans have obtaining patents in the current system, 
including increased diversity in venture capital and the tech 
industry, robust support for women and minorities in STEM 
education, and congressional support of the SBIR program.
    Today, women received just 2.2 percent of venture capital 
and under 3 percent of venture-backed founders were Black or 
Latino. Further, women hold less than 20 percent of U.S. tech 
jobs and only 5 percent are in positions of leadership at 
technology companies. Similarly, African Americans hold less 
than 15 percent of tech positions and Latinos 14 percent. 
Clearly, more must be done to increase diversity.
    Supporting STEM education and the SBA's SBIR program are 
two other important ways to address the lack of diversity in 
the technology sector. Studies show that 75 percent of girls 
who have participated in hands-on STEM activities are empowered 
to seek careers in technology, while government programs like 
SBIR have made strides to foster participation by women and 
minorities through their national road show.
    I look forward to hearing from today's witnesses and 
working with my colleagues on both sides of the aisle to create 
meaningful policies that foster more opportunities for all 
Americans to innovate, seek patent protection for their 
inventions, and reap the benefits of entrepreneurship.
    I now would like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chair, and thank you for 
holding this important meeting today.
    Today, as you indicated, the Committee will address the 
need for increased diversity in U.S. patents. Intellectual 
property (IP) plays a vital role in protecting creative and 
innovative products and ideas. Our Nation's small businesses 
represent about 96 percent of employer firms in manufacturing 
industries with a high number of patents. Studies show that 
small business owners with IP protections can earn over 30 
percent more in revenue compared to their counterparts who have 
none. Firms with IP rights also pay on average 20 percent more 
in wages.
    The process for obtaining these protections can be 
challenging. Some small business owners are not even aware that 
they should protect their innovative products and ideas with 
intellectual property protections.
    In the last Congress, I was involved in helping to get the 
SUCCESS Act passed. This law became the starting point for this 
hearing and gave the U.S. Patent and Trademark Office the 
opportunity to collaborate with the SBA in order to study and 
reach recommendations for how to better include women and 
minorities in entrepreneurship and patent activities.
    Today, we will hear from a panel of very distinguished 
witnesses who will help us think about what the next steps 
should be in ensuring that there is patent diversity. I look 
forward to hearing what we can do to foster America's creative 
small businesses moving forward.
    Again, we want to thank all our panel members for being 
here this morning. We look forward to their testimony and 
asking questions, and I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If Committee Members have an opening statement, we would 
ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and Members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light comes on when you begin, and the yellow 
light means there is 1 minute remaining. The red light comes on 
when you are out of time, and we ask that you stay within that 
timeframe to the best of your ability.
    I would now like to introduce our witnesses on today's 
first panel.
    Our first witness today is Ms. Andrea Ippolito. Ms. 
Ippolito currently serves as Executive Director of Engineering 
Management Program and creator of W.E. Cornell at Cornell 
University, which works to increase the number of women in 
Cornell's STEM-based entrepreneurship programs. Prior to 
joining Cornell, she served as the Director of the Department 
of Veterans Affairs Innovators Network within the VA Center for 
Innovation. In this capacity, Ms. Ippolito designed and oversaw 
the creation of a $10.5 million program that provides tools and 
resources to VA employees to develop innovations that improve 
the experience of our veterans. Ms. Ippolito pursued doctoral 
studies in the Engineering Systems Division at MIT and also 
completed her M.S. in Engineering and Management at MIT. 
Welcome, Ms. Ippolito.
    Our second witness is Dr. Rayshawn Ray. Dr. Ray, a David M. 
Rubenstein Fellow in Governance Studies at The Brookings 
Institution, is Associate Professor of Sociology and Executive 
Director of the Lab for Applied Social Science Research at the 
University of Maryland, College Park. Dr. Ray's research 
addresses the mechanisms that manufactures and maintains racial 
and social inequality. Dr. Ray has published over 50 books, 
articles, and book chapters, and nearly 20 op-eds on the 
intersection of race, gender, and work. Welcome, Dr. Ray.
    Our third witness is Ms. Janeya Griffin. Ms. Griffin is 
founder and CEO of The Commercializer, a strategic consulting 
firm that collaborates with entrepreneurs and institutions to 
bring ideas and talents to fruition and increase economic 
growth opportunities. Focusing on technology, entrepreneurship, 
and inclusive innovation, Ms. Griffin is an experienced 
business development strategist assisting a range of client--
from small business owners to historically black colleges and 
universities, to underserved community organizations. Welcome.
    Now I yield to the Ranking Member to introduce our final 
witness.
    Mr. CHABOT. Thank you, Madam Chair.
    Our final witness will be Rick Wade, who is the vice 
president of Strategic Alliances and Outreach at the U.S. 
Chamber of Commerce. Previously, he worked with the Department 
of Commerce Economic Development Administration and the 
Minority Business Development Agency. Before joining the 
Chamber he was the deputy chief of staff to former Secretary of 
Commerce, Gary Locke, and a member of the White House 
Interagency Task Force on Federal contracting opportunities for 
small businesses. He received his B.S. from the University of 
South Carolina, an MPA from Harvard University, and was awarded 
honorary doctorates from Benedict College and from South 
Carolina State University. We welcome you here this morning, 
Mr. Wade. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot.
    Ms. Ippolito, you are now recognized for 5 minutes.

    STATEMENTS OF ANDREA IPPOLITO, PROGRAM DIRECTOR OF W.E. 
    CORNELL, CORNELL UNIVERSITY; DR. RASHAWN RAY, DAVID M. 
 RUBENSTEIN FELLOW, THE BROOKINGS INSTITUTION; JANEYA GRIFFIN, 
 MANAGING MEMBER AND PRINCIPAL CONSULTANT, THE COMMERCIALIZER, 
  LLC; RICK C. WADE, VICE PRESIDENT, STRATEGIC ALLIANCES AND 
               OUTREACH, U.S. CHAMBER OF COMMERCE

                  STATEMENT OF ANDREA IPPOLITO

    Ms. IPPOLITO. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot and members of the Committee for inviting me to 
speak here today. I am incredibly honored to be here as a 
citizen, biomedical engineer, entrepreneur, and faculty member 
at Cornell University.
    At Cornell, I focus my teaching efforts on cultivating 
women entrepreneurs in the sciences, where I serve as a 
lecturer in the College of Engineering and SC Johnson College 
of Business. I also direct a program called Women Entrepreneurs 
Cornell (W.E. Cornell) at the Center for Regional Economic 
Advancement, a hub at Cornell for several entrepreneurship 
programs.
    In my testimony, I will focus on the challenges facing 
women in obtaining patents. However, the challenges I will talk 
about today also apply to other minority groups and are often 
felt even more acutely by men and women of color.
    Today, women make up just 12 percent of all patent 
inventors. If we continue business as usual, it will take an 
estimated 116 years to reach gender parity in patenting. This 
is not an acceptable status quo.
    Innovation is the cornerstone of our economy. We need to be 
bringing more and diverse people into the innovation ecosystem 
to remain competitive on the global stage. The USPTO says if 
women, minorities and low-income individuals were to invent 
patent technology at the same rate as white men from high-
income households, the rate of innovation in American would 
quadruple.
    Now, let's take a look at the barriers. It is important to 
note up front that many of the barriers facing women in the 
patenting process are the same obstacles that women battle in 
the workplace at large--systemic gender discrimination and lack 
of access to institutional resources and mentoring in the right 
fields.
    Women are actually making significant gain in STEM fields 
and entrepreneurship, participating in these fields at greater 
rates than ever before. At Cornell University, 50 percent of 
all undergraduate engineering students are women. However, the 
growing number of women in STEM fields has not translated to 
increases in female patent inventors.
    But getting more women into STEM fields is not enough. The 
real gap comes from the rate of women involved in patent-
intensive fields, such as electrical and mechanical 
engineering. We also see far fewer women seeking patents in 
private industry than in the academic sector. Given that 85 
percent of patents go to private industry, this presents a 
challenge to gender parity.
    So why this gap? The existing research suggests that a lack 
of exposure to women in patent-producing fields is a key cause 
of sluggish growth in female innovation. Basically, it is a 
vicious cycle. A lack of women in these fields mean a lack of 
mentors, role models, and sponsors for aspiring women inventors 
seeking guidance and resources to innovate.
    Speaking from personal experience, my mother was an 
electrical engineer and constantly exposed me to STEM fields 
growing up. Her example created a pathway for me, which I hope 
to pass on to my daughter who is here with me today. If we are 
serious about raising the rates of women filing for and 
obtaining patents, we need to focus more resources on creating 
pathways to innovation and patenting for individuals in the 
academic sector and by bringing more women into patent-
intensive fields.
    Part of creating that pathway is addressing the high cost 
of patenting. The cost of patenting can range from $5,000 to 
$20,000 depending on the complexity of the technology. For 
individuals, the cost almost always falls directly on the 
inventor. The cost is often a heavier burden for women 
inventors due to continued gender-wage disparity and lack of 
access to venture capital or seed stage investment. Note that 
just 2 percent of venture capital in the U.S. goes to women-
only founders.
    Women also bear a disproportionate share of the 
responsibilities for child rearing and they point to child care 
costs as a key barrier to pursuing patents. A 2011 study found 
that patenting rates for women academics with children are 
lower than men and women faculty without children. And many 
academics actually increase patent activity with parenthood.
    Now, there are a few ways we can start to address the 
barriers facing women in the patenting process. First, the 
Federal Government should consider directing resources to 
establishing programs that provide onramps dedicated to 
increasing women's and minority group exposure to the patent 
and commercialization process. These resources should be 
directed to sectors in which women are currently pursuing 
patents, such as the academic sector, as well as for bringing 
women into patent-intensive fields. Specifically, we recommend 
that the SBA and USPTO consider a joint initiative which would 
create funds for onramp programs that focus on women and 
minorities.
    Second, these on-ramp programs should be feeders to 
existing entrepreneurship initiatives in the university, 
community, or region, such as the NSF I-Corps program among 
others.
    And third, we need to address the cost of applying for a 
patent. Tailored programs and entrepreneurship initiatives 
should consider specific funding for patent support to cover 
the cost of applying for parents and hiring the appropriate 
legal counsel.
    In conclusion, let's tackle this together to bring untapped 
talent into the innovation sphere, and support more equitable 
and just economic prosperity across our Nation. I would be 
happy to answer any questions that you have.
    Chairwoman VELAZQUEZ. Thank you, Ms. Ippolito.
    Dr. Ray, now you are recognized for 5 minutes.

                    STATEMENT OF RASHAWN RAY

    Dr. RAY. Chairwoman Velazquez, Ranking Member Chabot, and 
distinguished members of the Committee on Small Business, thank 
you for inviting me to testify on Enhancing Patent Diversity 
for America's Innovators. I am currently a David M. Rubenstein 
Fellow at The Brookings Institution and an associate professor 
of Sociology at the University of Maryland. I am also the 
executive director of the Lab for Applied Social Science 
Research (LASSR). At LASSR, what we do regularly partner with 
government agencies, organizations, and corporations to conduct 
objective research evaluations and develop innovative research 
products, such as our virtual reality work with law enforcement 
and incarcerated people.
    My comments will primarily focus on the importance of 
collecting data. What are public attitudes, how do people 
behave, and why is it important to collect demographic data?
    A majority of Americans want to be in control of who 
collects data on them, what is collected, for how long that 
data are stored, and what the data will be used for. However, 
context matters. For example, 90 percent of Americans view 
their social security number as very sensitive, whereas, only 8 
percent view their purchasing habits as being very sensitive. 
About 80 percent of Americans report having awareness that the 
government collects information about verbal, written, and 
online communication. And people seem to be quite comfortable 
with credit card companies collecting and storing data on them, 
followed closely by the government. They are much less likely, 
however, to be comfortable with websites they visit online, as 
well as cable and cellphone companies. Over 50 percent of 
Americans think that the government should be able to store 
data for a few years or as long as they need to. At the same 
time, however, slightly less than one-third of Americans 
perceive the government will keep their data safe and private. 
This is comparable to views about cellphone companies and cable 
companies. Partly, this simply has to do with a decline in 
public trust and social institutions. However, the public is 
much more likely to trust science and medicine than other 
social institutions.
    So, do people actually voluntarily provide demographic 
information on a survey when asked? In short, yes. My 
experience collecting data is that people overwhelmingly answer 
demographic questions on surveys. I have conducted surveys and 
interviews with the general public; police officers; students; 
families; parents; employees of companies; members of religious 
organizations; protestors and march attendees, people who have 
lost large amounts of weight; people living in urban, suburban, 
and rural areas; people on the west coast, the south, east 
coast, as well as the mid-west; and other high-risk groups. I 
have conducted these surveys and interviews in-person, online, 
on paper, and on tablets and other smart devices. I have asked 
demographic questions verbally, too, and the response rate is 
similar.
    Generally, I have asked respondents an assortment of 
questions ranging from questions about police-civilian 
relationships to sexual assault on campus, to issues with 
family and relationships. And overwhelmingly, people still 
voluntarily provide demographic information. I typically ask an 
assortment of questions about demographics--gender, age, race, 
ethnicity, national origin, sexual orientation, education 
level, household income, military or veteran status, and 
disability. I have also asked people who live in their 
household, what their relationship is to these people as well 
as people's political and religious beliefs.
    In this regard, demographic data encompasses a host of 
factors well beyond race or gender. By collecting other 
factors, it gives researchers the ability to conduct 
statistical analyses to determine what other factors matter in 
a survey.
    In a typical survey, less than 5 percent of respondents 
refuse to answer demographic questions. I am also the co-editor 
of an academic publication, Contexts Magazine: Sociology for 
the Public, and no matter how obscure the topic, rarely do 
researchers report having difficulty getting respondents to 
answer demographic questions.
    I want to end with three points about why it is important 
to collect demographic data. First, more data are normally 
better because they help to eliminate false positives. For 
example, the lack of demographic data may inflate the 
likelihood of certain groups catching a daily disease, having 
an early onset of dementia, or even whether or not they receive 
a patent or not, how many times they had to apply to receive a 
patent, and then what impact that patent might actually have on 
their economic growth.
    Oh, and the other thing, these false positives may 
inadvertently funnel resources to the wrong areas. So, by not 
including demographic factors, we might be misplacing resources 
and efficiencies.
    Second, the collection of demographic data allows for the 
determination of whether or not a sample is representative. 
Representation is extremely, extremely key, whether or not we 
are talking about people living in urban, or rural areas; 
whether or not we are talking about across different 
demographic groups, veteran status, disability status, et-
cetera.
    So, if a researcher is conducting a study on vaccines, for 
example, a representative sample is paramount. And I think 
everyone knows that there is kind of a history of this legacy 
here of what happens when you do not have a representative 
sample.
    If there is an over or underrepresentation of certain 
groups, the analysis will then likely over or underestimate the 
impact of say, in this case, vaccines and other sorts of 
outcomes. I also study algorithms and we have seen that 
recently as well, the impact that can have in the medical 
sphere.
    Third, what most Americans desire more than anything is 
transparency, inclusion, and equity. Demographic data help to 
provide this. A lack of demographic data often leads to bad 
science, does a disservice to Americans, and inhibits the 
United States' ability in continuing to be innovative and 
comprehensive.
    Chairwoman VELAZQUEZ. Thank you, Dr. Ray.
    Ms. Griffin, you are now recognized for 5 minutes.

                  STATEMENT OF JANEYA GRIFFIN

    Ms. GRIFFIN. Chairwoman Velazquez, Ranking Member Chabot, 
and members of the Committee, good morning. Thank you for this 
opportunity to discuss increasing diversity within our patent 
and commercialization system. I am honored to be here with you 
today.
    My name is Janeya Griffin, The Commercializer. I am an 
advocate for intellectual property. The first time that I truly 
learned about the value of patents was not in grade school or 
even college. Not in history books that were part of any common 
core curriculum that I was taught. It was only after college 
when I met professors who had patents who looked like me did I 
believed that it was possible to obtain one.
    Before becoming an advocate for IP, I was a STEM graduate 
from Grambling State University. The dean of my college 
recognized the entrepreneur in me and encouraged me to apply 
for a fellowship program called the Integrated Technology 
Transfer Network. Funded by the Department of Navy through 
earmarks, it took STEM students from HBCUs and taught us the 
business side of things so we could speak and understand the 
technical language, then translate that into a value 
proposition that business people could understand. 
Unfortunately, that program was defunded in 2011.
    By receiving certification in entrepreneurial technology 
commercialization, I was able to learn the true value and 
functionality of IP and work on tech transfer projects from 
several Federal labs where I evaluated patents to determine 
their commercial potential. Today, I manage and sell NASA's IP.
    Having said that, I am a black woman with a very unique 
skillset and only have the knowledge about the patent and 
commercialization system because I went through a very 
specialized program that targeted STEM students from HBCUs. 
This program has created inventors, small business owners, and 
even directors of SBA-funded programs. The advocacy work I do 
for innovators of color allows me to speak to what I see may be 
the issues that the country's patent and commercialization 
process is facing.
    My story about patents is not unique. I have surveyed my 
colleagues, clients, and professionals within this space and 
the sentiments are mostly the same. Many of them, even those 
who are patent attorneys, only learned about the value of IP 
when they reached grad school or as they were assigning their 
ownership rights to their IP over to their soon-to-be employer.
    Research shows black inventors receive six patents per 
million people compared to 235 of their white counterparts. So 
if you combine 13 of the Nation's NFL stadiums, only six of 
those seats were for black people.
    It is clear that even with the invention of the Internet, 
there are still huge exposure gaps in education when it comes 
to people of color seeing the contributions of people that look 
like them in the history books we are learning from. We should 
be highlighting and elevating inventors such as Marian Croak, a 
black woman with almost 200 patents who has a proven track 
record of success in this field to serve as a nationwide 
ambassador for patent attainment.
    The diversity gap in patents is not just an inclusion 
issue. It is also an exposure to generational wealth through 
patent commercialization, an access issue. And if exposure to 
generational wealth can be passed down through generations, 
then so can exposure to generational trauma. Before we begin to 
think we can solve the diversity gap, we must first understand 
how it came to be. For decades, our country's laws have placed 
minorities in positions where they have had to choose their 
life over their IP, even at one point being considered property 
themselves.
    Economist Dr. Lisa Cook discusses the correlation of 
declining minority patents during the Jim Crow and race riot 
era, having lost over 1,000 patents. More than 100 years prior, 
in 1710, the same holds true. The Meritorious Manumission Act 
of Virginia gave slave owners the rights to grant their slaves 
freedom in exchange for their inventions. Hence, the systemic 
issues faced by minorities in the patent commercialization 
systems for decades has not only created the diversity gap but 
has continued to sustain it. How can we expect to increase 
diversity in patenting and commercialization if historically 
the system has not been built for minorities to participate or 
succeed in general? Only collecting vanity metrics such as 
demographics of the inventor is not going to close the 
diversity gap. In fact, we should be asking how many of those 
six patents per million people are actually small business 
owners as ownership of a patent by a small business generates 
16 new jobs. That is 16 more opportunities for minorities and 
returning citizens.
    The success of this great Nation is not only dependent on 
our ability to invest in programs, pathways, and institutions 
which make room for a greater number of inventors, but also on 
how we tell the true story of the contributions of women and 
minorities in almost every sector of the American economy. Why 
not fund more certificate programs like the one I went through? 
If we are truly focused on increasing the diversity of patents, 
we must invest in education, access, and equity at the highest 
level in the most marginalized communities which will ensure 
this great Nation retains it's economic vitality.
    My name is Janeya Griffin, an HBCU graduate, IP advocate, 
and a proud black woman. Thank you for your time.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Wade?

                   STATEMENT OF RICK C. WADE

    Mr. WADE. Good morning, Chairwoman and members. I am Rick 
Wade, the U.S. Chamber of Commerce's vice present for Strategic 
Alliances and Outreach. I am leading our efforts to create and 
expand opportunities for diverse-owned businesses and 
enterprises across America. I appreciate the opportunity to 
testify before you this morning.
    The Chamber commends the Committee for its leadership on 
issues central to increasing access to our innovation economy, 
particularly among women, minorities, veterans, and other 
underserved communities. Through my experience both in the 
public and private sectors, I have come to understand and 
appreciate that diverse-owned enterprises are key contributors 
to and drivers of America's economy. The Minority Business 
Development Agency (MBDA) of the U.S. Department of Commerce, 
estimates that there are currently 11 million minority business 
enterprises nationwide which employ over 6 million people and 
generate nearly $1.8 trillion in revenue. Enhanced access to 
tools like the Patent System will only strengthen these 
enterprises and ensure their competitiveness in years to come. 
We especially appreciate the Committee's work on the Study of 
Underrepresented Classes Chasing Engineering and Science 
Success Act of 2018, also known as the SUCCESS Act.
    Too often, underserved communities and diverse business 
owners lack the information and/or resources to take advantage 
of the many forms of intellectual property protections 
available to them, including our U.S. Patent System. As you 
well know, the SUCCESS Act directed the U.S. Patent and 
Trademark Office, in consultation with the Small Business 
Administration, to identify publicly available data on the 
number of patents applied for and obtained from women, 
minorities, and veterans, and benefits of increasing these 
numbers. The act also asked for legislative recommendations on 
how to encourage and increase engagement among diverse 
innovators and entrepreneurs. We recognize the leadership of 
USPTO director Andrei Iancu for the report and programs that 
his agency has implemented to encourage more diverse 
participation in our innovation economy. The USPTO report 
revealed that there is a limited amount of public available 
data regarding the level of participation by women, minority, 
and veterans. Only approximately 12 percent of investors named 
on U.S. patents are women. Clearly, this represents a serious 
issue of concern but also an opportunity as minority 
communities have higher shares of women-owned enterprises. The 
USPTO has resources in almost every state to help new entrants 
navigate the patent process, including local partnerships with 
pro bono attorneys, law school clinic programs, local libraries 
where inventors can get help searching USPTO databases for 
previously filed patents and trademarks and other programs. The 
USPTO also recently updated its homepage to include a link to 
these local resources. Now with just one click, new inventors 
can access a map of the United States and then click on their 
state and find in one place numerous resources to assist them 
in their local areas.
    This year, the USPTO will launch a Council for Innovation 
and Inclusiveness to develop a national strategy for promoting 
and increasing the participation of underrepresented groups and 
will expand its work with other Federal agencies to develop 
training materials to help elementary, middle, and high school 
teachers incorporate the concepts of invention and IP creation 
and protection into classroom instruction.
    The report also provides legislative recommendations. 
Congress could authorize a streamlined mechanism for USPTO to 
undertake a voluntary, confidential biennial survey of 
individuals named in patent applications that have been filed. 
Congress could expand the authorized uses of grants and funds 
in appropriate Federal programs to include activities that 
promote innovation and entrepreneurship among underrepresented 
groups.
    Finally, please know that the U.S. Chamber of Commerce, the 
largest business organization in the world, has stepped up its 
efforts to expand opportunities for diverse-owned enterprises. 
Our partnership with the Minority Partnership Development 
Agency in which we are working together to address issues such 
as innovation, automation, access to capital and connectivity 
to the global marketplace. We are convening the heads of the 
Nation's diverse chambers and other business organizations to 
collectively advocate for a common business agenda to include 
entrepreneurship. Our NextGen partnership with Historically 
Black Colleges and Universities seeks to inspire and develop 
the next generation of innovators, entrepreneurs, and business 
leaders. Through a grant from the W.K. Kellogg Foundation, we 
are advancing a dialogue across the business community on 
Kellogg's major research port, the Business Case for Racial 
Equity, assessing best practices and policies that could help 
close the entrepreneurial divide. From Thomas Jennings, the 
first black patent recipient in 1821 for a dry cleaning 
process, to current day Dr. Lonnie Johnson, who is literally a 
rocket scientist, our goal must be to continue to inspire and 
develop new generations of innovators and entrepreneurs.
    We look forward to working with you and walking with you on 
this very important journey.
    Chairwoman VELAZQUEZ. Thank you very much. Quite an 
impressive group of witnesses. We really thank you for 
providing such insightful information.
    I am going to start by recognizing myself for 5 minutes.
    Dr. Ray, in the SUCCESS Act report we found that there was 
no available data concerning the number of women and minority 
inventors who have applied for or received patents from the 
USPTO. We also know that we need to improve patent 
opportunities for all underserved entrepreneurs, including 
those in rural communities. How does this lack of data impact 
Congress's ability to propose legislation that will improve 
opportunity for underrepresented groups?
    Dr. RAY. Yeah, well, a lack of data might actually lead to 
a misallocation of funds or misplacement of funds. And it might 
also be about an intersection between say race, gender, and 
geography. So, what you might find as we know is that there is 
an underrepresentation for women and minorities, but it might 
be that individuals are living in particular areas. And if we 
do not capture these variety of demographic questions, we will 
not be able to answer these important questions.
    Chairwoman VELAZQUEZ. Do you think it is important that we 
collect information to track regional patterns of innovation?
    Dr. RAY. Yes, I do. I mean, geography becomes a key metric 
by which to look at. In fact, in a lot of research studies, zip 
code is oftentimes used as a proxy for income, wealth, and 
race. If we are collecting that information, we want to make 
sure that we collect an assortment of these demographic 
variables because a proxy can be just as detrimental as not 
collecting information.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Ippolito, you mentioned that more women are 
participating in science and engineering occupations and 
entrepreneurship, but yet, this has not translated into more 
female patent holders. I heard when you said the high cost of 
patents might be a factor, but do you believe that there are 
any other efforts needed to ensure that a more robust pipeline 
of women in STEM leads to equality in the innovation economy?
    Ms. IPPOLITO. Absolutely. So we recommend that the USPTO 
and SBA ignite new programs to create onramp programs taking 
STEM women and other minorities, to introduce them to the 
patent and commercialization processes. And in these programs 
they will get exposed to role models and mentors.
    There was a recent study that was done by Dr. Delgado and 
Dr. Murray that shows that patents from top inventors have 
higher percentages of including first-time female inventors on 
their patents. What is interesting about this work is that 
these top inventors are both male and female. But in 
particular, female top inventors tend to include more women. So 
how do we include these top inventors as part of these onramp 
programs as role models, as mentors to help facilitate this 
process? And what is great about these onramp programs, W.E. 
Cornell being one of them----
    Chairwoman VELAZQUEZ. At what level should that happen?
    Ms. IPPOLITO. So they should be based in universities and 
in communities. Universities are the places where STEM women 
and minorities are being educated, so this is a great 
opportunity to expose them at that level so that they can 
continue innovating beyond the university setting.
    Chairwoman VELAZQUEZ. Ms. Griffin, would you like to 
comment?
    Ms. GRIFFIN. Yes, I do agree with Ms. Ippolito's 
sentiments. Specifically, minority institutions and HBCUs 
graduate the most minorities that we know today. So by working 
directly with them I think that would be the best bet.
    Chairwoman VELAZQUEZ. What would you say is one of the 
biggest reasons why many minority entrepreneurs fail to receive 
patents?
    Ms. GRIFFIN. So, I will give you three: Education. Lack of 
education in terms of the patenting and commercialization 
process, lack of resources, and then also the lack of access. 
If we are looking in terms of representation on how many 
inventors we are looking at through our history books, which is 
kind of what I talked about before, we do not really see too 
many of them. And it is not something that is widely known. And 
so we need that representation. There are so many people that I 
talked to that actually did not know anything about the patent 
process until they reached graduate school. So if you think 
about the many patents, especially Dr. Croak. She has 200 
patents. So any time before then, if she would have been 
educated as a child in her early childhood years, 200 patents 
from her graduate school years until now, we have lost so much 
economic opportunity from that position.
    Also we need more culturally competent qualified counsel, 
and so by working with them they would allow us to be able to 
educate our minorities in marginalized communities.
    Chairwoman VELAZQUEZ. Thank you. My time has expired.
    Now I recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you very much, Madam Chair.
    Ms. Ippolito, in your view, what is the biggest barrier for 
women who are trying to enter the patent process, and what can 
we do to help?
    Ms. IPPOLITO. So the two biggest barriers are exposure and 
also the high cost of patenting. So we know that there is a 
growing number of STEM women that are entering this field and 
they are going on to the private sector. By the way, there is 
an overwhelming number of patents coming from the private 
sector, particularly in patent-intensive fields like electrical 
engineering and mechanical engineering. So the biggest barrier 
is getting exposure to these STEM women who we know are getting 
this education but we are not efficiently using that talent 
pool. And so if we can direct resources, programs like the ones 
the panelists have talked about to educate them and expose 
them, show them role models. You cannot be what you cannot see. 
And so we need to bring this exposure to K-12 programs and 
university settings. And then we need to address the high cost 
of patenting itself with pro bono lawyers that are qualified in 
those fields and we need to give them access to these networks 
of lawyers to help them facilitate this process.
    Mr. CHABOT. Okay. Thank you very much.
    Let me go back to Dr. Wade, if I could. Or Mr. Wade; sorry.
    In your written statement you had discussed the Chamber's 
annual International IP Index. Are there any trends that the 
Chamber sees that could either be beneficial or nonbeneficial 
for the U.S. in coming years?
    Mr. WADE. Well, the IP Index, you know, the Intellectual 
Property Index which measures economies across some 50 
countries, I mean, what it does, it shows a correlation between 
intellectual property protections, patents, job creation, and 
success and growth of business. That has been a consistent 
trend and probably the most important trend that I think should 
be the basis of even this conversation. How do we increase 
entrepreneurs and innovators across diverse communities so as 
to create more jobs and create the positive forces of our 
economy?
    Mr. CHABOT. Okay, thank you very much.
    Dr. Ray, in your opinion, why do Americans give so much, 
you know, the demographic data so easily to surveyors? Are 
there any risks that come with that? And anything that you 
would suggest along those lines? Because, obviously, you are 
legitimate. How should people make sure that they are not being 
tricked into something?
    Dr. RAY. Yeah, that is a great question. I think when 
people know why they are giving their information they are much 
more likely to give it. I think when it comes to the Federal 
Government, when it becomes clear why that information is being 
provided. For all of the slew of publications that I have had, 
I tell people. In fact, it is required at universities to do 
research that we tell people why we are collecting data on them 
and what we are going to use it for. And typically, people will 
do that.
    I think one of the other things that is extremely important 
is to capture the most people at the most time. In this 
particular case, at the application phase is when you are going 
to get them because, I mean, if people do not get the patent, 
they are going to be less likely to fill out a survey later. 
They are not as incentivized. But if you get that demographic 
information from the beginning, then people are much more 
likely to provide it. And I think it is common place. I think 
in many regards if we are talking about gender, age, even 
household income, geography, race, typically people can 
pinpoint what a person looks like. And even if people's age is 
slightly off by 10 years or so, people kind of have an idea of 
what those demographics are and people are willing to provide 
them.
    Mr. CHABOT. Thank you very much.
    And Ms. Griffin, could you tell us something about, you 
talked about the various patents that you have been involved 
in. Is there any one in particular that you have that was 
particularly, you think might be helpful or help other people 
out there who might have a great idea and want to get a patent 
for themselves to either support their family or their business 
down the line or whatever?
    Ms. GRIFFIN. You are asking me if I have an actual patent?
    Mr. CHABOT. Yes, I mean----
    Ms. GRIFFIN. No, I did not.
    Mr. CHABOT. Okay. You have not yourself. Okay. Was there 
anything that you were engaged in or work with that you think 
are particularly interesting or that give some information to 
folks that might have a good idea out there?
    Ms. GRIFFIN. Patents in particular?
    Mr. CHABOT. Yes.
    Ms. GRIFFIN. So there are, oh, wow, a lot of different 
technologies, specifically ones that are focused on actually 
solving the problems within their communities. Most times what 
I see when I am working with people is that they are solving a 
problem that has been specifically affected by them and most 
people that they know. People solve problems that affect 
themselves. And so I think that specifically when we are 
talking about women, issues that women face, there are many 
times where there should be issues where marginalized 
communities are really being focused on. So if we are talking 
about artificial intelligence, if we are talking about 
different ways that we can use technologies to be incorporated 
into businesses that may not actually have patents or may not 
have a technical person there, they should be able to use 
Federal labs or institutions that actually have repositories of 
patents in order to become either tech enabled or tech based.
    We are now currently in our fourth industrial revolution, 
and so technology is at the core of that. And so if 
entrepreneurs and small business owners are not putting 
technologies into their business, owning their own patents, we 
are losing out on jobs lost. We are losing out on being able to 
be a part of the economy that is now being created today.
    Mr. CHABOT. Thank you very much.
    My time is expired, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    The gentlelady from Kansas, Ms. Davids, is recognized for 5 
minutes.
    Ms. DAVIDS. Thank you, Chairwoman. To the Chairwoman and 
Ranking Member, thank you for holding this hearing today.
    I say this all the time, small business is the backbone of 
our country, and I think what we are talking about now is 
seeing small business being impacted by innovation and being 
able to own the intellectual property when you are the creator.
    This past October, the House passed the Women's Business 
Center Improvement Act and Rep. Hagedorn and I put that bill 
forward because women's business centers we think can have a 
really strong impact on entrepreneurship and supporting women 
entrepreneurs.
    I have at least one more question so hopefully we will get 
through this quickly.
    Ms. Ippolito, I wanted to see if you could talk a little 
bit, because you mentioned WBCs in your testimony. If you could 
talk a little bit about how programs like yours or other 
programs can help either feed into women's business centers or 
maybe how women's business centers can improve to maybe partner 
with the types of programs that you have.
    Ms. IPPOLITO. Absolutely. So at Cornell, we created Women 
Entrepreneurs of Cornell, or W.E. Cornell to act as a feeder 
into our existing entrepreneurship initiatives. And the reason 
we did that is because we did not want to cannibalize the 
number of women in our entrepreneurship programs. We wanted to 
increase the number of women and minorities in our programs.
    So programs like W.E. Cornell that we see at other 
universities as well, but we hope programs like W.E. Cornell 
can scale across the country and university-based settings, in 
particular in areas outside of our technology bubbles that we 
often see on the coast.
    But programs like W.E. Cornell can partner with the women 
business centers to increase exposure of STEM women to these 
services. If you build it you cannot just assume they will 
come. Women need to be invited, encouraged, inspired, frankly, 
to be part of this movement so that we can have a better 
economy. So programs like W.E. Cornell can partner with women 
business centers and we can have directed outreach to STEM 
women and minorities in these programs.
    Ms. DAVIDS. So that actually, so Ms. Griffin, in your 
written and verbal testimony you mentioned the program, the 
Integrated Technology Transfer Network Program that you 
participated in and that you did not really see this type of 
opportunity until much later. And I am curious how we can talk 
about getting folks more knowledgeable, interested, excited 
about these kinds of, about STEM, about patents, earlier on. 
And not just when folks get to that college level.
    And then secondarily, if you would not mind talking a 
little bit about--I do not know if you are familiar with the 
women's business centers or some of the other SBA programs, but 
how those might partner with like HBCUs. I would be curious to 
hear that as well.
    Ms. GRIFFIN. Yes. Thank you.
    We have to meet them where they are. And most times when we 
are talking about marginalized communities, they know nothing 
about what is going on outside of where they live. Right? And 
so if we are to educate them on who they could be, we have to 
show them people that look like them that are actually doing 
it, which is why I talked about Dr. Croak. I keep bringing her 
up again because we need to actually see people that look like 
us to actually put it in place where we actually believe that 
it can happen because it is a tangible thing.
    The Integrated Technology Transfer Network Program was a 
really great program and it opened up my eyes to a lot of 
different things. I did not know anything about Technology 
Transfer offices. I did not know that many HBCUs do not 
necessarily have them or know what to do about technology 
transfer. After I graduated I went back to my HBCU and I said, 
hey, where is our tech transfer office? I am thinking that this 
is something that is common because we were at Cal State 
University San Bernardino and they did not know what I was 
talking about. And so for me, I think the education around 
technology commercialization and technology transfer, because 
you are looking at it from a standpoint of having either 
corporations or institutions that are actually licensing these 
technologies that are resulting from Federal funds versus small 
business owners who are actually spending their hard-earned 
money and investments into patenting, prosecution, fees, and 
things of that nature.
    So I think those are two very different things. And when we 
want to talk about licensing for small business owners, they 
are actually being able to exploit and reap most of those 
benefits by getting residual income from that.
    Chairwoman VELAZQUEZ. Time has expired.
    Ms. DAVIDS. Thank you.
    Chairwoman VELAZQUEZ. Now, we recognize the gentleman from 
Tennessee, Mr. Burchett.
    Mr. BURCHETT. Thank you, Chairlady, Ranking Member. Thank 
you all for putting this meeting together as was stated 
earlier.
    I have always been an inventor at heart. I still make 
bamboo skateboards, actually. Bamboo and hemp, actually. 
Completely biodegradable. Everybody thinks I am going to break 
my neck on them but I still ride them, much to the chagrin of 
my neighbors and my wife. But anyway. And I appreciate you all 
being here.
    Ma'am, I appreciate you bringing your daughter her. I had a 
very cool momma and she actually flew an airplane during the 
Second World War. She was quite a lady, and I miss her daily. 
And while Daddy was off fighting the Japanese in the Pacific, 
my momma did her part for the war effort and so I was blessed.
    And ma'am, when you mentioned historically black colleges, 
my momma taught for 10 years at Knoxville College and was in 
their hall of fame, actually. So that is cool.
    And you, men, I have nothing for you all today. I dig you 
all being here but I especially appreciate the ladies. And I 
thank you again for bringing your daughter here with you. I 
have a wonderful little girl who I got when she was five. And 
started dating her momma then and I adopted her since then. 
Never made more money, never been broker, never been happier in 
my entire life. So thank you all.
    This really does not have anything to do with what you all 
have said but a fellow was in my office this week that I met 
earlier oddly enough and we had talked about inventions. And he 
invented something that was really cool and it got stolen from 
him. Went to court, got it back. But I am wondering if any of 
you all have ever heard of anybody that has an approved patent 
but they have not been able to maintain it because a larger 
company stole their idea. I hear a lot of that from China. 
Thank you, ma'am. But I was wondering if any of you all could 
name any specifics real fast.
    Sir, we will start with you on the end and just come this 
way.
    Mr. WADE. I apologize. I cannot cite any specific examples. 
I would be happy to follow up.
    Mr. BURCHETT. Okay. I would like that.
    Ma'am?
    Ms. GRIFFIN. So I will not get into specifics because I do 
not know what is public information, but I have spoken with a 
few people who have those same sentiments that they do feel 
like corporations are, you know, once they have presented that 
information to them they basically say that they are not 
interested and then they see something, whether it is in the 
marketing that they shared or something that is not in their 
claims, right, so they begin to use the funds that they do have 
access to develop around the claims that are in those patents. 
And then when you are looking at an independent patent 
inventor, they do not necessarily have those funds to actually 
fight in litigation and to go up against big corporations. And 
so there is nothing that they can do, I mean, outside of just 
coming to legislation, talking to the congressmen and 
congresswomen.
    Mr. BURCHETT. Right.
    Ms. GRIFFIN. But, yes.
    Mr. BURCHETT. Thank you.
    Sir?
    Dr. RAY. Yeah, I will quickly say, I mean, Lonnie Johnson, 
who we mentioned before, who pretty much every kid has played 
with a Nerf Gun or a Super Soaker. I mean, he actually had to 
litigate and go to court. And, the patents actually helped to 
preserve that for him. I think that is what is key is that it 
is a long, torrid history of particularly individuals who are 
under resourced, women and minorities, having their inventions 
stolen from them. I mean, historically, Jack Daniels is one of 
those examples with Uncle Nearest. And they tried to amend from 
that.
    I am from Murfreesboro, Tennessee, by the way.
    Mr. BURCHETT. Thank you. I appreciate the fact that you and 
I are the only people in this daggum room that do not have an 
accent. So thank you.
    Dr. RAY. I could go along with that.
    Mr. BURCHETT. Thank you.
    Dr. RAY. But I mean, I think that there are several 
individuals, and I think to this point, that impacts the 
application process. And that is why it is important to collect 
data on the front end because you have a lot of individuals who 
simply will opt out of that process because of the money and 
because they are worried about getting scooped from larger 
companies.
    Mr. BURCHETT. Thank you.
    Ma'am?
    Ms. IPPOLITO. So I do not have any specifics from personal 
experience, but in speaking with folks that have gone through 
the patent process and that are repeat offenders, and I use 
that in a positive way of those that are applying for more than 
one patent, they hear these stories. And to Dr. Ray's point, if 
they learn and hear of their colleagues and peers that have to 
go to court and litigate which sometimes it can cost up to a 
couple hundred thousand dollars if not more, then this deters 
them from submitting more patents. So I think we need to fix 
this. I believe there is a group of inventors that have the 
Inventors Right Act and there is a lot of talk in this arena 
from inventors who I have spoken with.
    Mr. BURCHETT. I feel like we are the daggum Congress. We 
ought to do better by working folks that come up with these 
innovative ideas because I hear about them getting stolen. I 
know this lady back here, I appreciate that. I have heard it 
many times. So thank you all.
    One quick question. I have got 17 seconds.
    Ms. Griffin, where would you suggest folks go to obtain 
funding for their patents? Banks?
    Ms. GRIFFIN. Independent inventors, I think we are here. 
They should come here. Well, no, so if we are looking at 
funding that has already been allocated to help small business 
owners, why are we not looking at allocating more funding to 
actually help them within the patent ownership process? Data 
shows that small business owners who actually own their patents 
generate 16 jobs. Their sales go up 51 percent over 5 years. 
And so if we are wanting to help small business owners, then we 
need to help them in the ownership of their patents and be able 
to help them exploit those as well.
    Mr. BURCHETT. Thank you, ma'am.
    Thank you, Chairlady. I appreciate your indulgence.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. BURCHETT. Thank you, ma'am.
    Chairwoman VELAZQUEZ. Now we recognize the gentlelady from 
California, Ms. Chu, Chairwoman of the Subcommittee on 
Investigation, Oversight, and Regulations.
    Ms. CHU. Thank you.
    I was certainly alarmed to see that women, especially 
African Americans and Hispanics, obtain patents at lower rates 
than men; that people of color obtain patents at much lower 
rates than whites; that individuals from lower income 
backgrounds are much less likely to obtain a patent than 
children of wealthier families. And yet I know as Co-Chair of 
the Congressional Creative Rights Caucus how important 
intellectual property and IP protections impact our economy. 
These protections are especially important for my district in 
southern California which is home to countless of these small 
business owners and innovators who hold IP in a wide variety of 
fields from technology to art, music and movies. And so I 
really feel strongly that as members of Congress we have a 
responsibility to foster their innovation and ensure that the 
U.S. is an environment where ingenuity and inventiveness can 
thrive and prosper.
    We need to make sure that we have robust and thorough 
demographic data to understand how we can ensure the patent 
system is working for traditionally underserved communities 
like minorities, women, and veterans, and it means that we need 
more data and better cooperation between Federal agencies, 
including the U.S. Patent and Trademark Office.
    Ms. Griffin, you have such a powerful story about how 
patents changed your life. You testified to how patents can 
unlock generational wealth. Can you expand on that statement 
and explain why patents are a powerful tool in reducing 
economic inequality and why it is so important that 
historically disadvantaged Americans can fully benefit from 
patent protections for their intellectual property?
    Ms. GRIFFIN. Absolutely. So when we talk about patents, we 
talk about generational wealth, right, and how intellectual 
property is equitable to ownership which is also equitable to 
generational wealth. And so if we are to own patents, then what 
does that do for our economy, for our marginalized communities, 
for our historically black college universities if they are to 
actually start playing in the tech transfer spaces. And having 
return on investments from R&D funding by producing patents and 
then being able to exploit those by licensing those patents, 
creating spinoff companies specifically around those 
communities, utilizing the entrepreneurs within those 
universities who are also minorities, to utilize those 
technologies, to improve on those technologies, it becomes this 
ecosystem in the cycle of event where you are now creating 
generational wealth across generations. Specifically, when we 
start talking about Federal Government, how can we actually be 
using HBCUs as a conduit to do this? And so even with SBIR 
funding, STTR funding, looking at nontraditional principal 
investigators who are in our marginalized communities, they may 
be small business owners who do not have a technical 
background, but what we see is in the startup space you can 
actually be a nontechnical CEO and then find a CTO to actually 
help you push your company forward. And so if we are to do 
that, then we could take small business owners with 
nontechnical backgrounds, pair them with principal 
investigators at historically black colleges and universities 
or minority-serving institutions and then create generational 
wealth through that way.
    Ms. CHU. Thank you for that.
    Ms. Ippolito, my district in southern California is home to 
744 independent small business inventors and they have told me 
personal stories about the prohibitive costs associated not 
only with applying for a patent but also defending their 
intellectual property rights from sometimes frivolous legal 
challenges. In fact, they said that large companies are able to 
exploit the USPTO system to overwhelm independent inventors and 
small businesses with litigation and legal fees by endlessly 
challenging the validity of their patent.
    But I was struck about your case study of a female 
entrepreneur expecting to pay between $4,000 to $8,000 in 
filing and fees, and also, of course, she has childcare costs 
that limit her financial resources. So how can the expectation 
of high filing legal fees dissuade some innovators from 
engaging in the patent process and how could this 
disproportionately affect minority and female entrepreneurs?
    Ms. IPPOLITO. Yeah, thank you for that question.
    So the example that you mentioned is Dr. Sarah Reyes. She 
recently obtained her doctoral degree at Cornell and she has a 
countertop breast milk pasteurizer that she is currently going 
through the filing process right now. She is about to be a 
post-doc where you do not make a lot of money, and thankfully, 
she is in programs like entrepreneurship lab or eLab at Cornell 
and W.E. Cornell that provide her with a small stipend of 
money, $5,000 to help cover those costs.
    But if you do not provide those funds to cover those legal 
fees and the patent fees itself, then folks like Dr. Reyes will 
be limited even pursuing those patents. So providing these 
small stipends as part of onramp programs like W.E. Cornell can 
help increase the number of women and minorities that are 
applying for patents. Or else it is just cost prohibitive and 
we are not going to see this increase.
    Ms. CHU. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. Time has expired.
    Mr. Evans from Pennsylvania, Vice Chairman of the Committee 
is recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair. And as usual, I thank 
you, Madam Chair, and the Ranking Member for your leadership on 
these issues. This is really very important.
    Women and minorities are less likely to receive venture 
capital. In 2018, women entrepreneurs in tech brought in just 
22 percent in U.S. venture capital investment. Just 1 percent 
of venture backed founders were African Americans and 1.8 were 
Hispanic. Further, nearly three-fourths of venture capital 
firms have no female investors. Minorities represent just 3 to 
4 percent of venture capital.
    Now, this is a question to all of you so you will have your 
chance since I only have 4 minutes and 16 seconds. To any of 
the witnesses, can you explain the disparity in venture capital 
expenditures and make suggestions on how we can increase the 
chances of women and minority in tech of receiving venture 
capital?
    So I will go down the line and start with Mr. Wade.
    Mr. WADE. Thanks. That is a very important issue, capital. 
And one of the things we must understand is that investors are 
attracted to patents.
    Mr. EVANS. Yes.
    Mr. WADE. And that is a very important variable in this 
conversation of access to capital. I also believe that mentor-
protege programs, how do we build the kinds of relationships 
between venture capitalists and other funders with innovators 
and entrepreneurs from minority communities are very important. 
That is one of the initiatives actually that we are developing 
through the U.S. Chamber.
    Mr. EVANS. Ms. Griffin?
    Ms. GRIFFIN. So I would also like to comment on what he 
said. I have the same sentiments. But as I was doing my 
research it says the first patent granted increases the 
probability of securing VC funding by 53 percent. So it is 
very, very important that we get small business owners, 
specifically black women, to start actually monetizing their IP 
and actually patenting that intellectual property. We are the 
most educated, the most entrepreneurial, and with that we need 
to also have the most patents as well. So, yes.
    Dr. RAY. I will just quickly say that the collection of 
data becomes important by understanding what happened before 
the application, during the application, and after the 
application. So, what the SUCCESS Act is aiming to do is 
commendable in a sense that essentially is doing the 
longitudinal survey to ask people over time. That becomes 
extremely, extremely key to figure out: where are the gaps in 
the pipeline? Where are the leaks in the pipeline? Right now, 
we simply only have data kind of on who is applying and who is 
not and whether or not they are awarded that. But the pipeline 
extends well beyond that and a collection of data will help 
better address these questions so that resources can then be 
allocated specifically to deal with social networks, to deal 
with a lack of capital. I mean, we already know from minority 
and women-owned businesses they are simply less likely to get 
loans from banks and a lot of that is systemic. These are 
things that can be prevented. This prevents them from bringing 
their work to scale and that becomes extremely important for 
individuals who are low income in urban and rural areas because 
research shows that they are more likely to return to where 
they are from. This means they are helping to generate jobs in 
rural areas, urban areas, and low-income areas that previously 
did not have any.
    Ms. IPPOLITO. I want to agree with everything that has been 
said so far. So we know that venture capitalists are 
overwhelmingly white males, and if you talk to any venture 
capitalist they say how they get to know entrepreneurs is 
through introductions. So if you are not embedded in these 
networks then you cannot get an introduction to venture 
capitalists and then you cannot raise funding. And we know that 
getting a patent helps get venture funding. So that is one 
point.
    Secondly, a lot of the process of pitching and getting 
investment from venture capitalists frankly has been optimized 
for men. An example of this is a study by Dr. Murray where she 
looked at both male and female entrepreneurs and she recorded 
their voice with the exact same content. And it was found that 
men were seen as a more attractive investment. They even added 
video and, of course, they saw the same thing. But as you can 
see that it has been optimized for men to receive this funding 
overall.
    Mr. EVANS. I thank you.
    Madam Chair, I hope with the question that I just asked, 
yes, protecting patents are important and what we need to do, 
but at the end of the day, if you are going to move these 
patents to be commercialized to the marketplace and try to 
address the problems in communities, the basis is they need 
capital. They need access. So you, I know, have been conducting 
sessions with tech-fins and other entities but that really 
needs to be a discussion as a follow-up. So I only suggest that 
in your thinking about that.
    Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from Maine, Mr. Golden, 
Chairman of the Subcommittee on Subcontracting and 
Infrastructure for 5 minutes.
    Mr. GOLDEN. Thank you, Madam Chair.
    I am going to ask a question that I do not know the answer 
to already so it is, you know, hopefully, one out of curiosity 
but it is specific to some of my constituents in Maine.
    Maine is I think per capital one of the least diverse, 
whitest states that we have in the country, very large, very 
rural. But in the last couple of decades we have had a sizeable 
group of Somali Americans move in to the community as well as a 
fair number of asylum seekers. And I found that because of 
language barriers, for the first generation, anyway, what we 
often see is a lot of people that become small business owners. 
They bring a lot of skills with them. The language barrier kind 
of stands in the way though. And as a result, it is hard for 
them to get into whatever industries we have in that area. And 
so they are very creative in how they find a way to make things 
work and make a living, become entrepreneurs themselves. But 
something we often see, particularly with, or technical issues 
or having to deal with the bureaucracy of agencies like SBA is 
that language barrier can be very frustrating and/or prevent 
them from accessing the kind of assistance that they need to 
really maximize their skills and become successful.
    So I was just curious, particularly with patent at USPTO, 
is there good resources there to help people overcome language 
barriers or is that lacking? And if it is lacking, any 
recommendations on where people can go to get help with that 
kind of a challenge?
    Ms. IPPOLITO. Not to my knowledge. I do not know of any 
resources off the top of my head.
    Mr. WADE. I do not as well but I would like to just make 
one observation of the advantage of that language also. What we 
do know is that minority firms, owned enterprises are more 
likely to export, to do business in countries abroad. And so 
how we also view language barriers could also be a language 
opportunity in not just the patent process but as we seek to 
grow more entrepreneurs, particularly who are exporting their 
products abroad.
    Dr. RAY. I just want to make one quick point that speaks to 
this. When I did my analysis of patents over time with the data 
that we have available, one big thing we know is that U.S. 
patent recipients has decreased over time and foreign 
recipients have increased. And a large percentage is coming 
from Asia, particularly Japan. But one of the things that I was 
thinking about in relation to demographic information as a 
university professor, we have a lot of individuals, a lot of 
international students who come to the U.S. But they might 
actually return or a lot of them might actually want to stay 
and they are being innovative while they are here. However, we 
are not collecting information to know whether or not they are 
even educated in the United States to begin with. So, when we 
look at the demographic information currently, we see that they 
are listed under a foreign inventor when, in fact, they might 
have invented that at a U.S. university and then they might 
actually need ways to think about scaling it to help the U.S. 
economy grow. I think that is something that is missing. It 
speak to language in a sense that a lot of international 
students come over. There is a language barrier. They are 
learning English in a lot of ways. But they are being 
innovative. And we need to actually capture information on them 
to figure out how they are contributing to the U.S. economy as 
well.
    Mr. GOLDEN. I appreciate that. And I agree wholeheartedly. 
It is a huge potential asset in our community where we can 
increase economic relations that we would not have had without 
our Somali Americans.
    I am not surprised that maybe you do not have an answer or 
that you do not think that there are any resources like that 
out there but something to point out, Madam Chair, I mean, I 
have had meetings with SBA where it was a point of frustration 
for people that there is no one to help translate, no one that 
can help deal with some of the language barrier. And I am, of 
course, thinking more specifically about that first generation 
of immigrants who often have a lot of great ideas and are 
running businesses. And when they come to the Federal 
Government for help it is tough if there is no resources out 
there to help with translation.
    Chairwoman VELAZQUEZ. With that, let me thank all the 
witnesses. I would like to make a closing statement.
    The U.S. patent system provides inventors and small 
businesses the ability to monetize life-changing ideas and 
incentivizes advancement in technology. Because of its vital 
role in protecting valuable intellectual property, a strong and 
inclusive patent system is necessary to advance America's 
economic growth and global competitiveness.
    However, we have far to go in this journey. Women, 
minorities, and low-income communities in urban and rural 
America are still underrepresented in the patent, trademark, 
and innovation ecosystem. Gathering information about patent 
applicant demographics will drive better policy that ultimately 
helps more women, people of color, moderate and low-income 
communities, and other traditionally disadvantaged groups 
obtain patents for their innovations. Closing the patent gap 
will also drive economic growth and advance America's global 
lead in innovation.
    I look forward to working with my colleagues in Congress to 
advance policies that foster an inclusive innovation ecosystem.
    I will ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 12:45 p.m., the Committee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
